IN THE SUPREME COURT OF THE UNITED STATES OF
AMERICA
TODD OLIVER AMEEN,
Petitioner, Pro-se,
Mentally disable,
Case No.

vs.

CASEY HAMILTON,
Defendant,
MOTION FOR EXTENSION OF PAGE LIMIT
Yes, Petitioner here is over the (40) page-page limit by (3) pages and here ask kindly that

1/

this Court grant ah extension for page limit. The last page is only the required conclusion and
signature, so Petitioner is actually only over page limit by (2) pages. The actual innocence
situation in this case involves insanity and other forms of innocence and is a first of its kind to
reach Supreme Court; as well, there are conflicts amongst the Circuit Courts. Petitioner was only
able to explain and argue actual innocence in the Certiorari here sent because of the (40) page
limit; all other argument Petitioner has had to leave for incorporation by reference to the appeal
record, which really isn’t fair. The penal institution Petitioner is housed at is on quarantine for
(Covid-19) and time in the law library is limited to (2) days per week, which leaves no time for
Petitioner to figure out how to condense things into lesser form, and now the law librarian has
been feeling sick, so Petitioner is now, out of urgency, sending in his certiorari as is; please
accept. If page extension cannot be granted, Petitioner here ask that this Court to just simply
exclude the extra, or last (3) pages of the actual innocence argument within the certiorari. From
the “statement of the case” to the last page of the certiorari at page # (68), is (43) pages; the
proceeding pages to these do not count toward the actual page limit, so Petitioner is (3) pages
over the limit. It is here requested the granting of page limit from (40) pages to (43) pages.

Respectfully submitted,

Icbdri1 Oliver /fi

I
Date: v'feiA "7 j(0~£Q (

RECEIVED
JAN 1 4 2021
iuplR#MEFC1OORT‘-p,Rc-K

A

